No. 19-368 & 19-369

IN THE
Supreme Court of the Anited States

FORD MOTOR COMPANY,

 

Petitioner,

Vv.

MONTANA EIGHTH JUDICIAL DISTRICT COURT, ET AL.,
Respondents.
ForD MOTOR COMPANY,

Petitioner,

v.

ADAM BANDEMER,
Respondent.
CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I certify that three copies of the Brief
of Washington Legal Foundation as Amicus Curiae in Support of Petitioner in Ford
Motor Company v. Montana Eighth Judicial District Court, No. 19-368, and Ford
Motor Company v. Bandemer, No. 19-369, were served via overnight mail on all

parties required:

Sean Marotta Deepak Gupta

HoGAN LOVELLS US LLP GUPTA WESSLER PLLC

555 Thirteenth Street, NW 1900 L Street, NW Suite 312
Washington, DC 20004 Washington, DC 20036
(202) 637-4881 (202) 888-1741
sean.marotta@hoganlovells.com deepak@guptawessler.com
Counsel for Petitioner Counsel for Respondents

I declare under penalty of perjury that the foregoing is true and correct.

Date: March 6, 2020

 
